Tr

OC
2311 Douglas Street Nn Leg KLE

Omaha, Nebraska 68102-1214 Est. 1923

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850 No. 20-1786

JOANNE TROESCH AND IFEOMA NKEMDI,

Petitioners,
Vv.

CHICAGO TEACHERS UNION, LOCAL UNION NO. 1,
AMERICAN FEDERATION OF TEACHERS, AND THE
BOARD OF EDUCATION OF THE CITY OF CHICAGO,

Respondents.

AFFIDAVIT OF SERVICE

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

1, Andrew Cockle. of lawful age. being duly sworn, upon my oath state that I did. on the 26th day of August, 2021, send out
from Omaha, NE 3 package(s) containing 3 copies of the BRIEF OF AMICUS CURIAE LANDMARK LEGAL
FOUNDATION IN SUPPORT OF PETITIONERS in the above entitled case. All parties required to be served have been

served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:

MATTHEW C. FORYS
Counsel of Record
MICHAEL J. O’NEILL
LANDMARK LEGAL
FOUNDATION
19415 Deerfield Ave.
Suite 312
Leesburg, VA 20176
703-554-6100
703-554-6119 (Facsimile)
matt@landmarklegal.org

RICHARD P. HUTCHISON

LANDMARK LEGAL
FOUNDATION

3100 Broadway

Suite 1210

Kansas City, MO 64111

816-931-5559

Attorneys for Amicus Curiae

Subscribed and sworn to before me this 26th day of August, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL MOTARY-State of Nebraska
RENEE J. GOSS
f My Comm. Exp. September 5, 2023

Loss Oudrar-h. hile

 

 

Notary Public

41280
SERVICE LIST
Attorneys for Petitioners

William L. Messenger
Counsel of Record
c/o National Right to Work Legal Defense Foundation, Inc.
8001 Braddock Road, Suite 600
Springfield, VA 22160
wim@nrtw.org
703-321-8510
Party name: JoAnne Troesch, et al.

Attorneys for Respondents

Thomas Arthur Doyle
Counsel of Record
Board of Education of the City of Chicago (Law Department)
1 North Dearborn
9th Floor
Chicago, IL 60602
tadoyle2@ecps.edu
773-553-1720
Party name: Board of Education of the City of Chicago

Joshua B. Shiffrin
Counsel of Record
Bredhoff & Kaiser PLLC
805 15th Street Northwest
Suite 1000
Washington, DC 20005
jshiffrin@bredhoff.com
202-842-2600
Party name: Chicago Teachers Union, et al.
